APPENDIX
Decision of United States Court of Appeals
for the Seventh Circuit

fj

z>

J

Case" 19-3008

Document: 27

Filed: 08/20/2020

Pages: 1

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

Everett McKinley Dirksen United States Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604

V

Office of the Clerk
Phone: (312) 435-5850
www.ca7.uscourts.gov

FINAL JUDGMENT
August 20, 2020
DIANE S. SYKES, Chief Judge

Before:

KENNETH F. RIPPLE, Circuit Judge
MICHAEL S. KANNE, Circuit Judge
1
i
i

No. 19-3008

CLAYTON LEE WAAGNER,
Petitioner - Appellant
v.

UNITED STATES OF AMERICA,
Respondent - Appellee

Originating Case Information:
District Court No: 2:16-cv-02156-SEM
Central District of Illinois
District Judge Sue E. Myerscough

The judgment of the District Court is AFFIRMED, with costs, in accordance with
the decision of.this
court entered on this date.
-r

form name: c7_FinalJudgment(form ID: 132)

4

/
4-

Case: 19-3008

Filed: 08/20/2020

Document: 26

Pages: 28

3ln Hie

Mmitb JStete fflourt nf Appeals
3for fJjc jieinmil) Oltmttf
No. 19-3008
Clayton Lee Waagner,
Petitioner-Appellant,
v.
United States of America,
Respondent-Appellee.

Appeal from the United States District Court for the
Central District of Illinois.
No. 2:16-cv-02156 — Sue E. Myerscough, Judge.

Argued May 20,2020 — Decided August 20,2020

Before Sykes, Chief Judge, and Ripple and Kanne, Circuit
Judges.
Ripple, Circuit Judge. Clayton Waagner filed a second col­
lateral attack on his sentence under 28 U.S.C. § 2255. He now
claims that his classification as an armed career criminal un­
der the Armed Career Criminal Act ("ACCA") is improper
in light of the Supreme Court's decision in Johnson v. United
States, 576 U.S. 591 (2015). Specifically, he challenges the
classifications of his Ohio aggravated burglary convictions

Case: 19-3008

Document: 26

Filed: 08/20/2020

Pages: 28

No. 19-3008

4T

also carried a statutory minimum imprisonment of fifteen
years.
While awaiting sentencing, Mr, Waagner escaped from
custody and, while, a fugitive, committed various other of­
fenses in multiple: districts. After his apprehension, he.
pleaded guilty to a charge of; escape. At sentencing, the dis­
trict court imposed a sentence of 327 months' imprisonment
for the felon-in-possession charge .and 120 months' for tire
stolen vehicle charge,, to run concurrently, and an additional
37 months' for tire, escape charge. The total sentence was 364'
months' imprisonment,2,
■ ;

•

8.

Mr. Waagner's direct appeal of his conviction and sen-,
tence was not successful. See.United, Sfates.v, Waagner, 319
F.3d 962 (7th Cir, 2003), in .2013,heiiled.a§'2255motion col­
laterally attacking his sentence in. light of the, Supreme
Court's decision in■ Descamps v. United States, 570 TJ-S, 254
(2013). That decision, had .resolved a. division among the cir­
cuits about the .application,of...the "categorical, approach"

2 Mr. Waagner also was convicted and' sentenced in multiple other fed­
eral courts. The Middle .District of,Pennsylvania imposed^a. sentence of
, 400 months' imprisonment; to run concurrently with the sentence in .the
Central District of Illinois. The 400-month sentence was reduced to a
250-month sentence after Mr. Waagner filed an unopposed § 2255 mo­
tion in light of Johnson v. United States, 576 U.S. 591 (2015). He also was
sehtericed to 228 months' imprisonment by the Eastern District of Penn­
sylvania, to be'served concurrently: to the sentence here; and 235 months'
imprisonment by the Southern District of Ohio, to:be served consecutive­
ly. He filed a § 2255 motion in the Southern District of(Ohio in light of
Johnson, but the court denied his motion.

V

Case: 19-3008

No. 19-3008

Document: 26

Filed: 08/20/2020

Pages: 28

5

employed by the courts to determine whether a prior convic­
tion is a predicate offense under the ACCA.
In applying the .categorical approach, a court compares
the elements of the statute with the elements of the "generic"
crime. Mathis v, United States, 136 S. Ct. 2243, 2248 (2016). If a
statute's elements cover conduct broader than the elements
of the generic offense, the offense does not qualify as. an
ACC A-predicate. Id. If a statute is "divisible;" that is, if there
are alternative ways to.violate it, a court applies the "modi­
fied categorical approach." Id, at 2249.: It may look at certain
documents in addition to the elements of the offense to de­
termine which alternative formed the basis of the conviction.
Id. The court then applies the categorical approach, compar­
ing the elements of the offense of Conviction (specifically, the
alternative that formed the basis of conviction) with the ele­
ments of the generic offense'. In Descamps, the Supreme
Court held that a court may not apply the modified categori­
cal approach-^and thus may ndt consult additional docu­
ments outside of the elements of thie offense—when a de­
fendant is convicted under an indivisible statute. 570 U.S. at
258.
In his first § 2255 motion, Mr,. Waagner contended that
his Ohio aggravated burglary convictions were actually bur­
glary convictions. He argUed that Ohio burglary,' like the
California burglary statute in Descamps, is broader than ge­
neric burglary and that therefore, a. conviction under the
Ohio statute did not qualify as a violent felony under the
ACCA: The district court, denied Mr. Waagner's motion. It
concluded that Ohio's burglary’ statute is distinguishable
from the statute in Descamps and that burglary under Ohio
law involves the risk of physical injury to another. Thus, the

Case: 19-3008

Document: 26

Filed: 08/20/2020

Pages: 28

No. 19-3008

6

court rejected Mr. Waagner's argument that his prior convic­
tions were not predicate offenses for ACCA purposes.3
After the Supreme Court's decision in Johnson, we grant­
ed Mr. Waagner permission to file a second or successive
§ 2255 motion, which is the motion on appeal before us. In
the successive motion, Mr. Waagner challenged his sentence
in light of Johnson, which held unconstitutional the residual
clause of the ACCA.
(■

•

■

1

Before the district court, Mr. Waagner contended that his
prior convictions for Ohio aggravated burglary qualified as
predicate offenses only under the now-invalid residual
clause. He therefore argued that the -convictions could no
longer form the basis for hi6 classification as an armed career
criminal. He further submitted that the Government could
not argue that Ohio aggravated burglary falls within the
scope of ‘generic burglary under the ACCA (and thus is a
predicate offense under the enumerated offenses clause). As
he saw the matter, during the first § 2255 motion, the Gov­
ernment had conceded that Ohio aggravated burglary is not
within the scope of generic burglary, and therefore it could
not argue the contrary position in the second § 2255, proceed­
ings. Mr. Waagner also contended that his prior, conviction
for Ohio attempted robbery did not constitute a predicate
offense.

3 See Waagner v. United States, No. 2:13-cv-02277 (C.D. Ill. Apr. 8, 2014).
Mr. Waagner appealed the dismissal of his § 2255 motion, but the case
was dismissed for failure to timely pay the required docketing fee, pur­
suant to Circuit Rule 3(b). Waagner v. United States, No.-14-2397 (7th Cir.
July 30, 2014).

Case: 19-3008

Document: 26

Filed: 08/20/2020

No. 19-3008

Pages: 28

7

In response, the Government first argued that
Mr. Waagner was not entitled do bring a second § 2255 mo­
tion. In its view, the claim did not actually arise from the
Supreme Court's decision in Johnson and therefore was not
based on a new rule of constitutional law, as required by the
statute governing successive collateral attacks.4 The Gov­
ernment further contended that, in any event, all five of
Mr. Waagner's prior convictions—including his Virginia and
Georgia convictions, which the district court had not used as
a basis for his ACC A classification—qualified as violent feloraes.

5

-

• '

The district, court determined that Mr. Waagner's claim
relied on Johnson because, itwas not until the residual clause
was invalidated that he was able, to file a nonfrivolous mo­
tion for relief. Prior to Johnson, any attack on the, Ohio statute
under the enumerated offenses, clause, would have been met
by the .rejoinder, that the convictions certainly fell under the
4 28 U.S.C. § 2255(h) permits a second dr-successive motion if it contains:
(1) newly discovered evidence that, if proven and
viewed in light of the evidence as a whole, would be suf- .
ficient.to.establish.by clear and convincing evidence that
no reasonable factfinder would have found the movant
guilty of the offense; or
(2) a new rule of constitutional law, made retroactive to
cases on collateral review by the Supreme Court, that
was previously unavailable.
5 See supra note 1; see also R.6 at 8 ("In the alternative, the United States
requests that this Court deny [Mr. Waagner's] claims on the merits be­
cause he is properly classified as an Armed Career Criminal based on his
five qualifying convictions for violent felonies.").

Case: 19-3008

Filed: 08/20/2020

Document: 26

Pages: 28

No. 19-3008

8

residual clause. Nonetheless, the district court held that his
prior convictions for Ohio aggravated burglary and Ohio at­
tempted robbery were violent felonies under the ACCA. It
rejected Mr. Waagner's contention that estoppel prevented
the Government from arguing that aggravated burglary was
not a violent felony. In its view, collateral estoppel did not
apply because the relevant, legal principles had changed:
"[ijndeed, if the legal principles had not,changed, Waagner
would not be able to bring his claim at all."6 The court also
rejected the Government's argument that Mr. Waagner's ad­
ditional prior convictions under Virginia and Georgia law
constituted predicate
offenses.
However,
because
Mr. Waagner's three prior Ohio convictions qualified as vio­
lent felonies under the AGGA, the district court affirmed his
status as an armed career criminal and denied his § 2255 mo­
tion.
Mr. Waagner timely appealed.
II
ANALYSIS

.

A,
We review de novo the legal questions presented on ap­
peal from a district court's denial of a § 2255 motion. Delator­
re v. United States, 847 F.3d, 837, 843 (7th Cir.' 2017). We first
address the Government's threshold , contention that
Mr. Waagner cannot bring a second or successive § 2255 mo­
tion.
>

■'

6 R.14 at 18.

■

■

Case: 19-3008

Filed: 08/20/2020

Document: 26

Pages: 28

9

No. 19-3008

Section 2255 provides an avenue for relief for federal
prisoners who contend that "the sentence, was imposed in
violation of the Constitution or laws of the United States, or
that the court w;as without jurisdiction to impose such sen­
tence, or that the sentence was in excess of the maximum au­
thorized by law, or is otherwise subject to collateral attack."
§ 2255(a). A petitioner must file a § 2255 motion within one
year from the date that the conviction becomes final, or, as
relevant here, one year from; "the date on which the right as­
serted was initially'recognized.by the Supreme Court ... and
made retroactively applicable to cases on collateral review."
§ 2255(f)(3). Accordingly, agination to vacate, set aside, or
correct a sentence based on the Supreme Court's decision in
Johnson must be filed within one year of Johnson. See Cross v.
United States, 892 F.3d 288, 293 (7th Cir. 2018).
Mr. Waagner filed his motion within one year of Johnson,
but the Government nonetheless submits that the motion is
untimely because it is not based on Johnson. In the Government's view, Mr. Waagner has not demonstrated that, at sen­
tencing, the district court relied solely on the residual clause.
Rather, at the time of sentencing, the district court could
have treated Mr. Waagner's prior convictions for Ohio ag­
gravated burglary as violent felonies under the enumerated
offenses ^clause and his prior conviction for Ohio attemptedrobbery as a violent felony under the elements clause. Iri that
sense, the Government's argument goes, Johnson did not
necessarily impact Mr. Waagner's sentence. In the Govern­
ment's view, Mr. Waagner cannot use Johnson as a
"back-door" way to challenge his sentence simply because
he theoretically could have been sentenced under the resid­
ual clause.
i y

Case: 19-3008

10

Document: 26

Filed: 08/20/2020

Pages: 28

No. 19-3008

The Government also submits that Mr. Waagner's claims
actually are based on an application of the modified categor­
ical approach for the enumerated offenses or elements claus­
es, as clarified by the Supreme Court in Descamps and
Mathis. Descamps elucidated the proper way to conduct the
analysis, explaining that the modified categorical approach
applies only when a statute is divisible. 570 U.S. at 263-64.
Mathis held that the general rule that a prior conviction qual­
ifies as a predicate offense only if its elements'match or are
narrower than those of the generic offense remains true
when applying the modified approach. 136 S. Ct. at 2251
(2016). As the Government reminds us, Descamps and Mathis
are not "new rule[s] of constitutional law, made retroactive
to cases on collateral review by the Supreme Court," that
would provide the basis for a successive ‘§ 2255 motion.
Mathis resolved a matter of statutory interpretation, rather
than announced a new rule'of constitutional law that could
provide a foundation for* a § 2255 claim'. Dawkins v. United
States, 829 F.3d 549, 551 (7th tir. 2016); "[T]he Supreme
Court has not made Descamps retroactive on collateral re­
view," Groves v. United States, 755 F.3d 588, 593 (7th Cir.
2014), and in any case, a claim founded oh Descamps would
have been untimely. Mr. Waagner filed this motion in 2016.
Therefore, the timeliness of Mr. Waagner's claim depends on
whether it is based on Johnson. See Cross, 892 F.3d at 293
("the timeliness of Cross's ... motion[] hinges on whether the
right [he] 'assert[s] was initially recognized by' Johnson")
(quoting § 2255(f)(3)).
Rejecting the Government's view, the district court con­
cluded that Mr. Waagner's claim did rely on Johnson because
it was not until that decision that Mr. Waagner had a nonfrivolous claim for relief. Before Johnson, had he contended

Case: 19-3008

Document: 26

Filed: 08/20/2020

Pages: 28

No. 19-3008.

11

that his convictions were not violent felonies under the
enumerated offenses clause, his dtallenge would have been
frivolous;-the offenses remained violent felonies under the
residual clause. We considered a similar scenario in Cross,
892 F.3d 288. There, two individuals were sentenced on the
basis of the residual clause and challenged their sentences in
the wake of Johnson. One of the defendants faced an. obstacle:
at the time of sentencing, his prior conviction also would
have qualified' as a violent felony under the elements clause.
Id. at 296. Since then, however, the Supreme Court had held
otherwise. Curtis Johnson v. United States, 559 U.S. 133 (2010).7
We explained1 that 7o/in:so'n,'not Curtis Johnson, triggered the
petitioner's right to file a § 2255 motion:
'
t

Prior .to Johnson, Davis had no basis to assert
thqt his sentence wasi illegal and thus he could
not claim a right to be released. Curtis Johnson
did not change that fact: all it did was to eliminate the elements clause, as a basis for Davis's
status, which is entirely dependent on the re­
sidual clause. Tlqere matters stayed until John­
son. Only, then could Davis file a nonfrivolous
motion for relief. ■

■

(

•

1 In Curtis Johnson v. United States, 559 U.S. 133 (2010), the Supreme
Court held fhat’"the phrase 'physical force' means violent force—that is,
force capable of causing physical paih'br ‘injury to another person." Id. at
140. The defendant in Cross v. United States, 892 F:3d 283, 297 (7th Gir.
2018), had a Wisconsin conviction for simple robbery, which requires the
use of force; however, the statute had been interpreted to include nonvi­
olent physical ■ contact. Therefore, we held that tire Wisconsin statute
"does not trigger the elements clause under'Cwtis Johnson." Id. :

Case: 19-3008

Filed: 08/20/2020

Document: 26

Pages: 28

No. 19-3008

14

Stanley and Sotelo do not control Mr. Waagner's case. It is
substantially different from the circumstances presented in
those situations. In his first § 2255 motion, he challenged the
classification of his prior convictions for Ohio aggravated
burglary on the ground that these offenses were not violent
felonies under the enumerated, offenses clause. The district
court denied his motion based: on ■the residual clause: "[tjhe
lesser charge of burglary under .Ohio, law 'involves conduct
that presents a serious potential risk, of physical-injury to an­
other/ 18 U.S.C. § 924(e)(2)(B.)(ii):" Waagner, No. 2:13-cv02277, at 3-i. Notably, - the judge who. rejected
Mr. Waagner's first §. 2255 motion (on the ground that his
prior convictions were violent felonies under the residual
clause) was the same judge who originally had sentenced
? \

(/.‘. continued)
■ Sotelo filed a § 2255 motion years later, after Johnson. His claim,
however, rested-primarily on another-case, Mathis v. -UnitedrStates, 136
S.,Gt/ 2243, which clarified the -application of the modified :categorical
approach. Sotelo,asserted that under,the Mathis frameworjc,,-hjs convic­
tions were not categorically crimes of violence under the elements clause
because in his view, the statute was indivisible and covered conduct that
did not necessary involve the use of force. '
. i

We rejected hiis argument that Johnson gave him a chance to attack
h'is sentence.' First, we noted that "[a]t‘sentencing, the district court re­
peatedly made clear that Sotelo was being sentenced under.'the elements
clause," not the residual clause. Sotelo, 922 F.3d at 852. "The.cssence of
Sotelo's claim for relief" was "under Mathis." Id. at 854. Sotejo contended
that "before Johnson, he could only have filed, a 'pointless' petition that
would have served merely to move his § 876 conviction1 from the ele­
ments to the residual clause." Id. af 853. But that argument failed in part
because Sotelo, like the-petitioner in Stanley, had never made this argu­
ment before the appeal:

\

i

!

Case: 19-3008

No. 19-3008

Document: 26

Filed: 08/20/2020

Pages: 28

15

him as an armed career criminal. This factor lends support to
Mr. Waagner's contention that his original sentence was
based on the residual clause. See Potter v. United States, 887
F.3d 785, 788 (6th Cir. 2018) ("[Tjhe judge who reviewed his
§ 2255 motion is the same judge who sentenced him. It is dif­
ficult to think of "a better source of information about what
happened the first time around.'*). A § 2255 motion based on
the enumerated offenses • clause' not only would have been
fruitless, it actually was futile: It was Johnson that opened the
door to Mr. Waagner's challenge to the classification of his
Ohio aggravated burglary convictions.
We therefore conclude that Mr. Waagner can bring a
§ 2255 motion insofar as it challenges the classification of his
Ohio aggravated burglary convictions. The same is not nec­
essarily true, however, for his challenges to the other prior
convictions. Each claim must be evaluated individually.
Hrobowski v. United States904 F.3d 566, 569 (7th-Cir. 2018).
Regardless, we need not consider whether Johnson opened
the doot fbhus to re view'anew Mr. Waagner'5 prior convic­
tion for Ohio attempted robbery, id. His challenge in this re­
gard must fail. He contends that the offense of attempted
robbery cannot be counted as a violent, felony under the el­
ements clause. While Ohio's attempted robbery statute re­
quires the .use, attempted use, or threatened use of force, he
submits, the state's "attempt statute" does not; As
Mr. Waagner himself acknowledges,-this argument is fore­
closed by H/// v. United States, 877 F.3d 717 (7th Cir. 2017).
We held in Hill that "[wjhen a substantive offense would be
a violent felony under § 924(e) and similar statutes, an at­
tempt to commit that offense also is a violent felony.", Id. at
719. We see no reason to revisit that decision.

Case: 19-3008

Document: 26

Filed: 08/20/2020

16

Pages: 28

No. 19-3008
B.

We now address the' question at the heart of
Mr. Waagner's appeal: whether his prior convictions for
Ohio aggravated burglary are violent felonies under the
ACCA.
1.
Before examining the merits of this issue, we address
Mr. Waagner's argument that the Government is collaterally
estopped from taking the position that Ohio aggravated
burglary meets the generic definition of burglary.
In litigating the first § 2255 motion, the Government con­
ceded that Ohio aggravated burglary did not meet the gener­
ic definition of burglary; it nevertheless maintained that the
offense qualified as a violent, felony under the residual
clause. Now that the Supreme Court has determined that the
residual clause is unconstitutionally vague, the Government
takes the contrary position drat. Ohio aggravated burglary
does meet the generic definition of burglary and, accordingly,
constitutes a violent felony under the enumerated offenses
clause. Mr. Waagner submits,that the doctrine of.collateral
estoppel prevents the Government from changing, its posi­
tion.
.
.
The doctrine of collateral estoppel, also known as issue
preclusion, "ordinarily bars relitigation of an issue of fact or
law raised and necessarily resolved by a prior judgment."
Bravo-Fernandez v. United States, 137 S. Ct. 352, 358 (2016). In
general, collateral estoppel applies when four distinct condi­
tions are met:
■
1) the issue sought to be precluded must be the
same as that involved in the prior action, 2) the

Case: 19-3008

Document: 26

Filed: 08/20/2020

Pages: 28

No. 19-3008

17

issue must have been actually litigated, 3) the
determination of the issue must have been es­
sential. to the final, judgment, and. 4) the party ,
against whom estoppel is invoked must be ful­
ly represented in the prior action.
Klingman v. Levinson, 831 F.2d 1292, 1295 (7th Cir. 1987).
Mr. Waagner seeks to preclude the Government from ar­
guing that Ohio aggravated burglary is generic burglary. But
that issue was not actually, decided in the prior litigation. In
denying Mr. Waagner's first .§ 2255 motion, the district court
concluded that Ohio aggravated burglary qualified as a vio­
lent felony under the residual clause. That questioh is, of
course, distinct from the question of whether the state law
offense constituted a violent felony ufider the enumerated
offenses clause. It may be true that the Government at the
time conceiie!d that thfe olfeiise did not’me'et the definitioh of
genetic burglary, but its taking that position was irrelevant
to the court's decision. The5 d'etermination of whether the
state law offense qualified'‘"as a violent felony under the
enumerated offenses clause was neither specifically decided
nor essential to the final judgment. "The fundamental ra­
tionale of issue preclusion'dictates the clearly settled re­
quirement that it be limited to matters that have been actual-'
ly decided." 18 Charles Alan, Wright et al., Federal Practice
and Procedure § 4420 (3d ed. 1998); see • Duthie v. Matria
Healthcare, Inc., 540 F.3d 533,y .542 (7th Cir. 2008) (noting that
collateral estoppel did not prevent plaintiffs from making
certain claims when the state court in the previous, litigation
had made no determination about those claims, "as such
claims were not before it"). Accordingly, the Government
may argue that the state offense is generic burglary.

Case: 19-3008

Filed: 08/20/2020

Document: 26

Pages: 28

No. 19-3008

18
2.

We now turn to the central question of whether Ohio ag­
gravated burglary constitutes a violent felony under the
ACCA. An offense is a "violent felony" under ACCA's enu­
merated offenses clause if it is a felony, state or federal, that
"is burglary, arson, or extortion." § 924(e)(2)(B)(ii). In inter­
preting the scope of these terms, we understand Congress to
have used them to include "generic" versions, of the enu­
merated offenses. "[A]s to burglary ... Congress meant a
crime 'containing] the following elements: an unlawful or
unprivileged entry into ... a building or other structure, with
intent to commit a crime.'" Mathis, 136 S. Ct. at 2248 (altera­
tion in original) (quoting Taylor y. United States, 495 U.S. 575,
598 (1990)). We examine only the elements of the state law
offense, without regard to the state's characterization of the
offense or the particular facts'of rthb case1; Taylor, 495 U.S. at
600-01.
■ ;l

5

'

A crime counts as "burglary" under the Act if
its elements are the same as, or narrower-than,
those of the generic offense. But if the crime of
conviction covers any more conduct than the
generic offense, then it is not an ACCA "bur­
glary"—even if the defendant's actual conduct
(i.e., the facts of the crime) fits within the ge­
neric offense's boundaries.
'
Mathis, 136 S. Ct. at 2248.10

As we explained earlier, under Mathis, 136 S. Ct. 2243, if a crime is
indivisible, that is, if there is one set of elements to define one crime, the
"categorical approach" calls for a straightforward comparison of those
(continued ... )

Case: 19-3008

Document: 26

Filed: 08/20/2020

Pages: 28

No. 19-3008

19

Mr. Waagner was convicted of Ohio aggravated burgla­
ry. At the time he was convicted in 1978, the relevant statute
provided:

!

(A) No. person, by force, stealth, or deception,
shall trespass in an occupied structure as de:
fined in.section 2909.01'of the Revised Code, or
in a separately secured or separately occupied
portion thereof, with purpose to commit there­
in any. theft offense; as defined in section
2913.01 of the Revised -'Code, or any felony,
when any of the following apply:.
;

t

;

(1) The offender inflicts, or attempts or threatens to inflict physical harm on another;
■ i..: i

:

'

(2) The offender, has a .deadly weapon or dan-. ,
gerous.^rdnance- as'defmedip. section,2923.11.. ...
of the Revised Code on or about his person or •
under his control;
:

! ■ ■

" ‘

' .

,

■

'

.

A''...'.

.

.:....

(3) The occupied structure, involved is the perma­
nent, or., temporary habitation of. any person, in,
which at,the time any person is present or. likely, to
bepresent.
' v-*
(... continued)
elements with the elements of the generic offense. The "modified cate­
gorical approach" requires an extra step when a statute is divisible, that
is, if there are multiple alternative elements. In such a case a court will
consider certain documents to determine exactly what offense (and thus
what elements) a defendant was convicted of committing. Only then will
the court proceed to compare those elements with tire elements of the
generic offense. t

Case: 19-3008

Filed: 08/20/2020

Document: 26

22

Pages: 28

No. 19-3008

where burglary is likely; to. present a serious risk of vio­
lence." Stitt, 139 S. Ct. at 407.12
'
With this guidance in mind, we examine the, Ohio aggra­
vated burglary statute. Specifically, we consider whether the
state statute's inclusion of structures and’vehicles not de­
signed or adapted for overnight accommodation, as long as
a person is present or likely to be present; renders it broader
than generic burglary.
Mr. Waagner focuses on ACCA's purpose of addressing
the inherent danger of the possibility of a violent confronta­
tion. The Ohio statute covers "6'rdinary vehicles" if they are
vehicles in which someone is present or likely to be present.
In Mr. Waagner's view, this additional requirement does not
do enough work. He notes that in Stitt, the Court explicitly
declined to decide whether ah Arkansas statute is overbroad
because it covers burglary'of a vehicle in which any 'person
lives: The defendant in that case had argued that "these
words might cover a car in which a''homeless person occa­
sionally sleeps." Id. Because the argument rested in part on
state law and had yet to be 'considered' by the lower courts,'
the Supreme Court remanded the case.
In Mr. Waagner's view, generic burglary focuses not only
on the risk of confrontation between the intruder and anoth. TT

"

■;

The Court also distinguished the' Iowa statute at issu‘d in Mathis,
which induded "ordinary vehicles", that "can'be used for .storage or
safekeeping," rather than for accommodation, of people.. United States v.
Stitt, 139 S. Ct. 399, 407 (2018). "That is presumably why ... 'all parties
agree[d]' that Iowa's burglary statute 'covers more conduct than generic
burglary does.'" Id. (quotingMathis, 579 U.S..at2250);

j

Case: 19-3008

Document: 26

Filed: 08/20/2020

No. 19-3008

Pages: 28

23

er person, but also on the defendant's awareness of that .risk.
He submits that when an individual "knows of the risk of
confrontation ... [,] his decision to commit the offense de­
spite that risk 'may mean that he is prepared to use violence
if necessary to carry out his plans or to escape.'"13 Under his
theory, the Ohio statute is overbroad because it includes sit­
uations in which a defendant may not necessarily know that
he poses a risk.
Mr. Waagner's analysis overlooks the statute's limiting
language that serves to keep the offense within the bounda­
ries of generic, burglary. "The. aggravated burglary statute,
by its own terms,Requires two elements of proof,, permanent
or temporary habitation, and. presence or likelihood of pres­
ence." State.v.'Wilson,'388 N.E.2d 745, 750 (Ohio 1979); see
also State v. Adams, ,45 N.E.3d 12.7, J74 (Ohio 2015) ("To establish that Adarns committed aggravated.burglary, ... the state
was required to show that at the. time he entered the apart­
ment, a person was present .or likely to be present."). The
twin requirements are independent.. Wilson-, 388 N.E.2d at
750 ("A ..structure can-be. one that was occupied'as a perma­
nent or temporary habitation without being one ... where at
the time anyone is present or likely to be present. The con­
verse is'alsotrue."). • '• ' •
Further, the Supreme Court of Ohio has explained that
the "presence" prong is no mere formality. In Wilson, it.ex­
plicitly rejected the argument that "once the state proves that
a permanent or temporary, habitation has been burglarized,
it is presumed that a person is likely to be present." Id. On
Appellant's Br. 35-36 (quoting Taylor, 495 U.S. at 588).

i

Case: 19-3008

JDocument: 26

Filed: 08/20/2020

26

Pages: 28

No. 19-3008

were broader than or substantially similar in scope to the
Ohio statute. Id. at 778 (quoting Taylor, 495 U.S. at 598).
Therefore, it stated, "the Ohio statute at issue ... is no outlir
er." Id.'5
Mr. Waagner criticizes Greer as. "not well reasoned."16 He
contends that the. Sixth Circuit "inappropriately, prioritizes
actual risk over the defendant's perceived...risk." Id. He
points to the Supreme Court's reasoning in Taylor:
,

..

The fact that an offender enters a building to
commit a crime often creates the, possibility of
a violent confrontation between the. offender
and an occupant, caretaker,, or some other per­
son ... And the offender's, own awareness of
this possibility may mean that he is prepared
..to ..use,.violence,:.if .necessary ;,to. carry outfchis,,. ,
plans or to escape.

495 U.S. at 588. But there is nothing to suggest'that "the of­
fend erVown awareness" of the risk is a requirement of gener­
ic burglary. In Stitt, the Supreme Cdurt rejected- the argu­
ment that a statute could be overbroad if a vehicle or struc­
ture is used as -an accommodation'on" a part-tiihe basis be­
cause the risk of violence is diminished. "After.all,; a burgla­
ry is no less a burglary because it took place at a summer
home during the winter, or a commercial building during a
—----- X—---- - ' ‘ - - i

^

15 Mr. Waagner has given us no reason'to believe that this assessment of
state burglary statutes is flawed iri any way that might require a plenary
reexamination.
t ' •

16 Appellant's Reply Br. 11. .

'

Case: 19-3008

No. 19-3008

Document: 26

Filed: 08/20/2020

Pages: 28

27

holiday." 139 S. Ct. at 406. This reasoning emphasizes the
"apparent potential for regular occupancy," id. (quoting
Model Penal Code § 221.1, Comment 3(b), p. 72), but it also
indicates that the potential for risk is not tethered to the de­
fendant's awareness of it. An individual who targets a com­
mercial building during a holiday presents a diminished risk
of actual violence and presumably has a diminished expecta­
tion of a violent encounter. Nonetheless, such a burglary is
"no less a burglary." Id.
—
Mr. Waagner contends thdf we should impose an addi­
tional requirement to consider a state law offense generic
burglary: the defendant's'awarenfess of the risk of a violent
encounter. But, as we havfe just noted, an examination of
Stitt renders this suggestion uhpersuasive. The Ohio aggra­
vated burglary statute limits its coverage to occupied struc­
tures that are habitations arid in Whidh a person is‘present or
likely to be present. These twin requirements confine the
statute's scope. to instances; in-which there is a "possibility of
a violent, confrontation." Taylor,; 495 U.S. at 588. .Therefore,.
Ohio aggravated burglary under section 2911.11(A)(3) falls;
within the category of .generic burglary. Mr. Waagner's two
convictions for Ohio aggravated burglary constitute violent
felonies1 within the meaning df the ACCA. 17

l'7 The Government submits that Mr. Waagner's prior conviction for
Georgia .burglary qualifies as a violent felony under the ACCA. With'
respect to that question, however, we , need not reach the merits.
Mr. Waagner has three predicate offenses, enough to qualify him for ca­
reer offender status under the ACCA regardless of whether his Georgia
burglary conviction is also a predicate offense.

4

Case: 19-3008

Filed: 08/20/2020

Document: 26

Pages: 28

No. 19-3008

28
Conclusion

For these reasons, the judgment of the district court is af­
firmed.
AFFIRMED

\

*

*

5

A

2:16-cv-02156-SEM # 14

Page 1 of 44

E-FILED

Thursday, 12 September, 2019 03:11:11 PM
Clerk, U.S. District Court, ILCD

IN THE UNITED STATES DISTRICT COURT
FOR THE CENTRAL DISTRICT OF ILLINOIS
URBANA DIVISION
CLAYTON LEE WAAGNER,
Petitioner,
Case No. 16-cv-02156

v.

UNITED STATES OF AMERICA,
Respondent.
OPINION
SUE E. MYERSCOUGH, U.S. District Judge:
This cause is before the Court on Petitioner Clayton Lee
Waagner’s Motion to Vacate, Set Aside, or Correct Sentence Under
28 U.S.C. § 2255 (Doc. 1). A hearing on the Motion is not required
because “the motion, files, and records of the case conclusively
show that the prisoner is entitled to no relief.” Hutchings v. United
States, 618 F.3d 693, 699-700 (7th Cir. 2010) (quotation omitted).
Because Petitioner is not entitled to relief, the § 2255 Motion is
DENIED. However, the Court will issue a certificate of
appealability.

Page 1 of 44

2:16-cv-02156-SEM # 14 Page 2 of 44

I. BACKGROUND
After a jury trial in December 2000, Waagner was found guilty
of being a felon in possession of a firearm in violation of 18 U.S.C.
§ 922(g)(1) and possessing a stolen vehicle which had crossed a
state line in violation of 18 U.S.C. § 2313(a). See United States v.
Waagner, Central District of Illinois, Urbana Division, Case No. 99cr-20042-HAB (hereinafter, Crim.), Verdict (d/e 77), PSR |3 (d/e
101).
The United States Probation Office prepared a Presentence
Investigation Report (“PSR”). The PSR found that Waagner qualified
as an Armed Career Criminal under 18 U.S.C. § 924(e) because he
had at least three prior convictions for crimes of violence, including
two 1978 convictions for Ohio Aggravated Burglary, Case #CR41373 and Case #CR-40374, and a 1992 conviction for Ohio
Attempted Robbery, Case #91-CR-006898. PSR fl[41, 48-49, 51.
Additionally, the PSR revealed that Waagner had a 1975 conviction
for Virginia Statutory Burglary, and a 1978 conviction for Georgia
Burglary. PSR 1H[45, 50.
Due to the Armed Career Criminal Act (“ACCA”) enhancement,
the PSR concluded that under the then-mandatory sentencing
Page 2 of 44

2:16-cv-02156-SEM # 14

Page 3 of 44

guidelines Waagner’s offense level was 34 and his criminal history
category was VI, resulting in a guideline imprisonment range of 262
to 327 months of imprisonment. PSR 1J104. Waagner’s status as
an Armed Career Criminal under § 924(e) increased his statutory
imprisonment range from zero to ten years imprisonment to fifteen
years to life imprisonment on Count 1.
On January 28, 2002, District Judge Harold Baker imposed a
sentence of 327 months’ imprisonment, followed by 5 years of
supervised release. Waagner also pled guilty to escape in a
separate case in the Central District of Illinois after he escaped from
custody after his trial. See United States v. Waagner, Central
District of Illinois, Urbana Division, Case No. 01-CR-20023-HAB.
Waagner received a consecutive sentence of 37 months of
imprisonment for the escape, resulting in a combined imprisonment
sentence of 364 months. Waagner’s convictions and combined
sentence of 364 months were affirmed by the Seventh Circuit.
United States v. Waagner. 319 F.3d 962 (7th Cir. 2003).
In addition to Waagner’s convictions and sentences in the
Central District of Illinois, Waagner is serving sentences pursuant
to criminal judgments in three other federal district courts. In
Page 3 of 44

2:16-cv-02156-SEM # 14 Page 4 of 44

2006, in the Middle District of Pennsylvania, Case Nos. 1:CR-01191, l:CR-06-145, l:CR-06-147, l:CR-06-203, and l:CR-06-228,
Waagner pled guilty to a litany of charges that had been pending in
other courts and transferred to the Middle District of Pennsylvania
where he had been indicted for bank robbery. He was initially
sentenced to 400 months’ imprisonment, to run concurrently with
his sentence in this district. However, in 2016, his sentence was
reduced to 250 months’ imprisonment after Waagner filed an
unopposed motion pursuant to 28 U.S.C. § 2255 in light of Johnson
v. United States. 135 S. Ct. 2551 (2015). See United States v.
Waagner, No. l:01-cr-191 (M.D. Pa.), d/e 28, 31, 43. In Johnson,
the Supreme Court held that the residual clause of the Armed
Career Criminal Act is unconstitutionally vague. 135 S. Ct. at
2563. Waagner also has a sentence of 228 months’ imprisonment
imposed by the Eastern District of Pennsylvania, Case No. l:02-cr00582, which was ordered to be served concurrently with his
sentence here.
Finally, Waagner has a sentence of 235 months’ imprisonment
imposed by the Southern District of Ohio, Case No. l:02-cr-00007,
which was ordered to be served consecutively with his sentence
Page 4 of 44

2:16-cv-02156-SEM # 14

Page 5 of 44

here. Waagner also filed a § 2255 Motion in his Southern District of
Ohio case in light of Johnson. However, this motion was denied on
April 11, 2017. United States v. Waagner, No. l:02-CR-007, 2017
WL 1324608 (S.D. Ohio Apr. 11, 2017).
In 2013, Waagner filed an initial Motion to Vacate, Set Aside or
Correct Sentence pursuant to 28 U.S.C. § 2255 for his criminal
case at issue here. Among other claims, he challenged his status as
an armed career criminal in light of Descamps v. United States, 570
U.S. 254, 133 S. Ct. 2276 (2013). Judge Baker denied the motion,
and the Seventh Circuit dismissed Waagner’s appeal for failure to
pay the required docketing fee. Waagner v. United States. Case No.
13-cv-2277 (C.D. Ill.), d/e 10, 19.
On June 6, 2016, after obtaining authorization from the
Seventh Circuit to file a successive § 2255 motion, Waagner filed
the instant Motion to Vacate, Set Aside, or Correct Sentence
pursuant to 28 U.S.C. § 2255 (Doc. 1). As in his other cases,
Waagner seeks to challenge his sentence in light of Johnson v.
United States, 135 S. Ct. 2551 (2015). The Court appointed the
Federal Public Defender as counsel for Waagner. The Federal

Page 5 of 44

2:16-cv-02156-SEM # 14

Page 6 of 44

Public Defender filed a Memorandum of Law on August 18, 2016
(Doc. 5).
The Court Ordered the Government to respond, which it did
on October 17, 2016 (Doc. 6). Waagner filed a reply on November
21, 2016 (Doc. 7). On April 27, 2017, Waagner filed a Motion to
Cite Authority (Doc. 8), citing the Fourth Circuit’s decision in
Castendet-Lewis v. Sessions. 855 F.3d 253 (4th Cir. 2017), which
held that Virginia statutory burglary under Va. Code § 18.2-91 is
broader than generic burglary and is not divisible.
The Court also ordered supplemental briefing after the
Supreme Court’s decisions in United States v. Stitt. 139 S.Ct. 399
(2018), and Quarles v. United States. 139 S.Ct. 1872 (2019), which
both addressed the scope of generic burglary. Waagner filed his
supplemental brief on August 5, 2019 (Doc. 10). The Government
has not filed a timely response. Additionally, the Court notes that
Waagner’s wife and children have submitted numerous letters in
support (Docs. 11, 12, and 13). This Order follows.
II. ANALYSIS
A person convicted of a federal crime may move to vacate, set
aside, or correct his sentence pursuant to 28 U.S.C. § 2255. Relief
Page 6 of 44

2:16-cv-02156-SEM # 14

Page 7 of 44

under § 2555 is an extraordinary remedy because a § 2255
petitioner has already had “an opportunity for full process.”
Almonacid v. United States, 476 F.3d 518, 521 (7th Cir. 2007).
Post-conviction relief under § 2255 is “appropriate for an error of
law that is jurisdictional, constitutional, or constitutes a
fundamental defect which inherently results in a complete
miscarriage of justice.” Harris v. United States, 366 F.3d 593, 594
(7th Cir. 2004) (internal quotation marks omitted).
Here, Waagner argues his ACCA sentence enhancement,
pursuant to 18 U.S.C. § 924(e), is invalid in light of the Supreme
Court’s opinion in Johnson v. United States, 135 S. Ct. 2551
(2015), because he no longer has three predicate convictions for
violent felonies. A person who violates 18 U.S.C. § 922(g) is an
Armed Career Criminal if they have “three previous convictions . . .
for a violent felony or serious drug offense.” 18 U.S.C. § 924(e).
Section 924(e)(2)(B) defines “violent felony” as “any crime
punishable by imprisonment for a term exceeding one year” that:
(i)

has as an element the use, attempted use, or threatened
use of physical force against the person of another; or

Page 7 of 44

2:16-cv-02156-SEM # 14

(ii)

Page 8 of 44

is burglary, arson, or extortion, involves use of
explosives, or otherwise involves conduct that presents a
serious potential risk of physical injury to another.

18 U.S.C. § 924(e)(2)(B). Clause (i) is known as the “elements
clause.” The first part of clause (ii) is known as the “enumerated
offenses clause,” and the part of clause (ii) that follows “otherwise”
is known as the “residual clause.” In Johnson v. United States. 135
S. Ct. 2551 (2015), the Supreme Court held that the residual clause
is unconstitutionally vague. 135 S. Ct. at 2563.
Waagner argues that his prior Ohio Aggravated Burglary
convictions only qualified as violent felonies under the residual
clause, so they can no longer be used as predicate offenses.
Further, Waagner argues that his prior convictions for Ohio
Attempted Robbery, Virginia Statutory Burglary, and Georgia
Burglary are not violent felonies either. Accordingly, he argues he
should not have been designated an Armed Career Criminal and
subject to a mandatory minimum sentence of 15 years’
imprisonment, but, instead, the otherwise applicable statutory
range of zero to ten years’ imprisonment.
In response, the Government argues that Waagner’s claim is
actually based on Descamps v. United States. 570 U.S. 254, 133 S.
Page 8 of 44

2:16-cv-02156-SEM # 14 Page 9 of 44

Ct. 2276 (2013), and Mathis v. United States, 136 S. Ct. 2243
(2016), rather than Johnson. And, accordingly, the Government
argues that Waagner is not entitled to relief because his claim does
not raise a new rule of constitutional law as required by
§ 2255(h)(2), is procedurally defaulted, and is untimely.
Additionally, the Government argues that Waagner’s claim does not
have merit because all of Waagner’s five prior convictions remain
violent felonies. The Court finds that Waagner’s claim does rely on
Johnson, but the Court agrees with the Government that Waagner
still has at least three predicate convictions and remains an Armed
Career Criminal. Accordingly, Waagner’s Motion must be denied.
A. Waagner’s Claim that his Ohio Aggravated Burglaries are
Not Violent Felonies Relies on Johnson and Can Proceed
in a Successive § 2255 Motion.
The Government first argues that Waagner’s claim is actually
based on Descamps v. United States, 570 U.S. 254, 133 S. Ct. 2276
(2013), and Mathis v. United States, 136 S. Ct. 2243 (2016), rather
than Johnson. This is so, the Government argues, because
Waagner’s prior offenses qualified as violent felonies under the
elements or enumerated clause at the time of sentencing, which
Page 9 of 44

2:16-cv-02156-SEM # 14 Page 10 of 44

Johnson did not impact. And, his claims that his prior convictions
no longer fall under the elements or enumerated clause relies on
Mathis and Descamps, not Johnson. Accordingly, the Government
argues that Waagner is not entitled to relief because his claim fails
to raise a new rule of constitutional law as required by § 2255(h)(2),
is procedurally defaulted, and is untimely.
However, the Seventh Circuit’s decision in Cross v. United
States, 892 F.3d 288 (7th Cir. 2018), rejected a nearly identical
argument. The petitioners in Cross had been sentenced as career
offenders under the mandatory sentencing guidelines. Id. at 291.
In light of Johnson, the petitioners brought § 2255 motions and
argued that the residual clause in the career offender guideline was
unconstitutionally vague. Id. The Government argued that one of
the petitioners’ claims was actually based on an earlier casi

Curtis

Johnson v. United States. 559 U.S. 133, 130 S. Ct. 1265 (2010). At
the time of sentencing, the petitioner’s conviction of simple robbery
qualified under the elements clause, while after Curtis Johnson, his
offense only qualified under the residual clause. Cross. 892 F.3d at
297. The Government argued that Curtis Johnson, rather than

Page 10 of 44

2:16-cv-02156-SEM #14 Page 11 of 44

Johnson, triggered the limitations period under § 2255(f)(3), and the
petitioner’s claim was now untimely, hh
The Seventh Circuit, however, found that “[p]rior to Johnson,
[the petitioner] had no basis to assert that his sentence was illegal
and thus he could not claim a right to be released. Curtis Johnson
did not change that fact: all it did was to eliminate the elements
clause as a basis for [petitioner’s] status, which became entirely
dependent on the residual clause. There matters stayed
until Johnson. Only then could [the petitioner] file a nonfrivolous
motion for relief.” Id.
The Seventh Circuit also distinguished its earlier holding in
Stanley v. United States, 827 F.3d 562, 565 (7th Cir. 2016), “which
held that Curtis Johnson rather than Johnson triggered the
limitation period under 2255(f)(3).” Cross, 892 F.3d at 298. The
Seventh Circuit explained that, unlike in Cross, Johnson was
irrelevant to the predicate offense at issue in Stanley because that
offense had only ever been a predicate offense under the elements
clause. Id.
The same reasoning is true here. Prior to Johnson, any
argument based on Descamps that Waagner’s Ohio Aggravated
Page 11 of 44

2:16-cv-02156-SEM # 14 Page 12 of 44

Burglary offenses were not violent felonies was frivolous. Even if
Descamps had made his convictions no longer qualify as violent
felonies under the enumerated clause, they remained violent
felonies under the residual clause. Indeed, Waagner brought a
§ 2255 motion based on Descamps, and it was denied for this very
reason. See Waagner v. United States. No. 13-cv-2277 (C.D. Ill.),
Order, d/e 10. It was not until Johnson that Waagner could “file a
nonfrivolous motion for relief.” Of course, as explained below, the
Court now finds his Ohio Aggravated Burglary offenses are still
violent felonies under the enumerated clause. However, his
argument that he is not an Armed Career Criminal after Johnson is
far from frivolous, like it was before Johnson. And, before Johnson
the state of law indicated that Waagner’s Ohio Aggravated Burglary
convictions could be deemed violent felonies only under the residual
clause. The Court finds that the determination of whether
Waagner’s prior offenses are violent felonies was necessarily
impacted by Johnson and that Waagner’s claim, therefore, relies on
Johnson.
Because Waagner’s claim relies on Johnson, the Court finds
that Waagner’s claim is timely and can be raised on a successive
Page 12 of 44

2:16-cv-02156-SEM # 14 Page 13 of 44

§ 2255 Motion. Pursuant to § 2255(f)(3), a claim is timely if it is
brought within one year of “the date on which the right asserted
was initially recognized by the Supreme Court, if that right has
been newly recognized by the Supreme Court and made
retroactively applicable to cases on collateral review.” 28 U.S.C.
§ 2255(f)(3). The Supreme Court held that its holding in Johnson
applied retroactively to cases on collateral review. See Welch v.
United States, 136 S. Ct. 1257, 1268 (2016) (“Johnson announced a
substantive rule that has retroactive effect in cases on collateral
review”). Therefore, Waagner, who brought his claim within one
year of the Johnson decision, can attack the validity of his sentence
in a § 2255 motion under Johnson. Id. Further, because Johnson
is a new constitutional rule that has been made retroactive to cases
on collateral review by the Supreme Court, Johnson meets the
requirements for successive petitions under § 2255(h)(2).
Finally, the Court finds that Waagner’s procedural default is
excused. If a defendant fails to raise a claim on direct review, he
must show both cause and prejudice in order to raise the claim in
post-conviction relief. See Bousley v. United States, 523 U.S. 614
622 (1998). Waagner has established cause for failing to object at
Page 13 of 44

2:16-cv-02156-SEM # 14 Page 14 of 44

trial. “[A] claim that ‘is so novel that its legal basis is not
reasonably available to counsel” may constitute cause for a
procedural default.’” Bouslev v. United States. 523 U.S. 614, 622,
118 S. Ct. 1604, 1611 (1998) (quoting Reed v. Ross. 468 U.S. 1, 16
104 S.Ct. 2901, 2910 (1984). At the time of Waagner’s trial, direct
appeal, and initial § 2255 motion, “no one—the government, the
judge, or the [defendant]—could reasonably have anticipated
Johnson.” Cross v. United States. 892 F.3d 288, 295 (7th Cir.
2018) (quoting United States v. Svnder. 871 F.3d 1122, 1127 (10th
Cir. 2017)). Additionally, if Waagner’s claim had merit, he would
have established prejudice due to his enhanced prison sentence.
Accordingly, the Court will not dismiss his claim for procedural
default. However, the Court still finds that Waagner is not entitled
to relief on the merits as described below.
B. The Government is Not Estopped from Arguing Ohio
Aggravated Burglary is Generic Burglary.
As an initial matter, in Waagner’s supplemental briefing, he
raises an additional argument that the Government should be
estopped from arguing that Ohio Aggravated Burglary is a violent
felony under the enumerated clause because the Government
Page 14 of 44

2:16-cv-02156-SEM #14 Page 15 of 44

conceded this point in Waagner’s prior § 2255 motion and Judge
Baker agreed in his opinion. While Waagner has raised an
interesting argument, the Court does not find that collateral
estoppel applies in this context.
“Collateral estoppel is generally said to have three purposes: to
‘relieve parties of the cost and vexation of multiple lawsuits,
conserve judicial resources, and, by preventing inconsistent
decisions, encourage reliance on adjudication.’” United States v.
Stauffer Chem. Co.. 464 U.S. 165, 176 (1984) (White, J.,
concurring) (“[T]here is no justification for applying collateral
estoppel, which is a flexible, judge-made doctrine, in situations
where the policy concerns underlying it are absent . . . Preclusion
must be evaluated in light of the policy concerns underlying the
doctrine.”). The Supreme Court has held that the defensive use of
collateral estoppel can apply against the Government where: (1)
there is a mutuality of parties, (2) “the issue sought to be relitigated
was identical to the issue already unsuccessfully litigated” in
previous litigation, and (3) there has “been no change in controlling
facts or legal principles since” the previous litigation. Stauffer
Chem. Co., 464 U.S. at 169; Montana v. United States, 440 U.S.
Page 15 of 44

2:16-cv-02156-SEM # 14

Page 16 of 44

147, 99 S. Ct. 97 (1979). Here, while there is mutuality of parties
and the facts remain unchanged, the Court finds that collateral
estoppel does not apply because the issue was not necessarily
decided and because the issue is one of law, not fact.
First, the Court finds that the issue was not necessarily
decided in the previous litigation because the finding that Ohio
Aggravated Burglary was or was not generic burglary was
inconsequential to the judgment in the previous case. See Bobby v.
Bies, 556 U.S. 825, 834, 129 S. Ct. 2145, 2152 (2009) (“If a
judgment does not depend on a given determination, relitigation of
that determination is not precluded.”). The Government certainly
conceded that Ohio Burglary does not meet the definition of generic
burglary in its Response to Waagner’s prior § 2255 motion. See
Waagner v. United States. No. 13-cv-2277 (C.D. Ill.), Gov’t Resp. at
24, d/e 5 (“Waagner correctly observes that neither Ohio burglary
statute meets the definition of generic burglary (i.e., ‘unlawful or
unprivileged entry into, or remaining in, a building or structure,
with intent to commit a crime,’). . . because it includes the burglary
of habitations, like tents, that are not buildings or structures.”)
(internal citations omitted). However, Judge Baker’s Order did not
Page 16 of 44

2:16-cv-02156-SEM #14 Page 17 of 44

entirely adopt the Government’s concession and did not directly
answer the question as to whether Ohio Burglary or Ohio
Aggravated Burglary could be a violent felony under the enumerated
clause, but rather found that Ohio Burglary was a violent felony
under the residual clause. FT, Order at 3-4, d/e 10. Due to this
finding, it was not necessary to determine whether Ohio Aggravated
Burglary was generic burglary, and, therefore, the Court finds that
the issue was not necessarily decided.
Second, the arguments in favor of collateral estoppel are
weaker when the issue to be precluded is an issue of law, as
opposed to one of fact. This is because “reopening issues of law
ordinarily is less burdensome than reopening issues of fact, and is
more likely to produce improved results. The interests of courts and
litigants alike can be protected adequately by the flexible principles
of stare decisis.” Wright & Miller, 18 Fed. Prac. & Proc. Juris.
§ 4425 (3d ed.). Here, the issue is purely law. And, importantly,
the legal principles and the relevant case law relating to the legal
issue of whether Ohio Aggravated Burglary is generic burglary have
significantly changed since Waagner’s previous § 2255 motion.

Page 17 of 44

2.16-CV-02156-SEM # 14

Page 18 of 44

Indeed, if the legal principles had not changed, Waagner would not
be able to bring his claim at all.
Moreover, in Light v. Caraway. 761 F.3d 809, 817 (7th Cir.
2014), the Seventh Circuit, while not addressing collateral estoppel,
found that a petitioner was not entitled to rely only on law that had
changed in his favor, while ignoring the law that had changed to his
detriment. In Light, petitioner’s criminal vehicular operation
conviction no longer qualified as a violent felony in light of Begay v.
United States, 553 U.S. 137, 139 (2008). IcL at 814. However,
since his conviction, the Supreme Court had also decided Svkes v.
United States, 564 U.S. 1 (2011), which made another of the
petitioner’s prior offenses—fleeing a peace office in a vehicle—
qualify as a violent felony another the ACCA when it previously did
not. IcL In rejecting the petitioner’s due process argument against
applying the latter precedent, the Seventh Circuit stated that “[w]e
cannot see why Light is entitled to a one-way ratchet, subject only
to changes in law that benefit him but immune from changes in law
that are not helpful.” Id. at 817. Similarly, Waagner is not entitled
to take advantage of the legal principles that changed to make the
Ohio Aggravated Burglary statute not a violent felony under the
Page 18 of 44

2:16-cv-02156-SEM #14

Page 19 of 44

residual clause, but ignore the legal precedent that now leads to the
conclusion, as explained below, that Ohio Aggravated Burglary is a
violent felony under the enumerated clause. Therefore, the Court
finds that estoppel does not apply and will now turn to the merits of
Waagner’s claim.
C. Generic Burglary Under the ACCA.
Waagner has four prior state law burglary convictions: two for
Ohio Aggravated Burglary, one for Virginia Burglary, and one for
Georgia Burglary. Waagner argues that none of these offenses are
violent felonies under the ACCA because the state statutes are
broader than generic burglary. The Supreme Court held in Taylor
v. United States, 492 U.S. 575 (1990), that the term “burglary” as
used in the enumerated clause of the ACCA means “generic
burglary.” Generic burglary includes the following elements: “an
unlawful or unprivileged entry into, or remaining in, a building or
other structure, with intent to commit a crime.” Taylor, 495 U.S. at
598.

To determine whether a predicate offense for burglary qualifies
as generic burglary, courts use the categorical approach. See
Descamps v. United States, 570 U.S. 254, 260, 133 S. Ct. 2276,
Page 19 of 44

2:16-cv-02156-SEM #14

Page 20 of 44

2283 (2013). Under the categorical approach, courts look to:
“whether the state conviction can serve as a predicate offense by
comparing the elements of the state statute of conviction to the
elements of the [generic offense].” United States v. Elder. 900 F.3d
491, 501 (2018) (citing Mathis v. United States. 136 S.Ct. 2243,
2248-49 (2016)). “If state law defines the offense more broadly than
the [ACCA], the prior conviction doesn’t qualify as a [violent felony],
even if the defendant’s conduct satisfies all of the elements of the
[ACCA] offense.” United States v. Edwards. 836 F.3d 831, 833 (7th
Cir. 2016).
If a state statute is overbroad, courts may use the modified
categorical approach if the statute is divisible to consult certain
documents to see which alternative formed the basis of the
defendant’s conviction. See Descamps. 570 U.S. at 262. The
modified categorical approach is only appropriate where a statute is
divisible into qualifying and non-qualifying offenses and does not
apply

a crime that has a single, indivisible set of elements. Id. at

263. A divisible statute is one that lists elements in the alternative,
and, in doing so, creates a separate crime associated with each
alternative element. Mathis. 136 S. Ct. at 2249. When a statute
Page 20 of 44

2:16-cv-02156-SEM # 14 Page 21 of 44

lists various factual means of committing a single element, the
modified categorical approach does not apply. Ich at 2248.
To determine whether a statute is divisible, courts look to see
if there is:
a decision by the state supreme court authoritatively
construing the relevant statute[, which] will both begin
and end the inquiry. . . . Absent a controlling state-court
decision, the text and structure of the statute itself may
provide the answer. Failing those ‘authoritative sources
of state law,’ sentencing courts may look to ‘the record of
a prior conviction itself for the limited purpose of
distinguishing between elements and means.
Edwards, 836 F.3d at 836 (citing Mathis, 136 S. Ct. at 2256).
Waagner argues all four of his burglary convictions are broader
than generic burglary, and none of the statutes are divisible.
D. Ohio Aggravated Burglary is Generic Burglary.
Waagner’s status as an Armed Career Criminal at sentencing
relied, in part, on his two 1978 convictions for Ohio Aggravated
Burglary. Prior to Johnson, the Sixth Circuit had held that Ohio’s
general burglary statute was only a violent felony under the
residual clause. See United States v. Coleman, 655 F.3d 480, 482
(6th Cir. 2011); United States v. Lane, 909 F.2d 895, 902 (6th Cir.
1990). After Johnson, with the residual clause invalid, Waagner
Page 21 of 44

2:16-cv-02156-SEM # 14 Page 22 of 44

argues that Ohio Aggravated Burglary is not categorically a violent
felony because the statute is broader than generic burglary and it is
not divisible.
At the time of Waagner’s convictions, the Ohio Aggravated
Burglary statute read:
§ 2911.11 Aggravated burglary
(A) No person, by force, stealth, or deception, shall
trespass in an occupied structure as defined in section
2909.01 of the Revised Code, or in a separately secured
or separately occupied portion thereof, with purpose to
commit therein any theft offense as defined in section
2913.01 of the Revised Code, or any felony, when any of
the following apply:
(1) The offender inflicts, or attempts or threatens to inflict
physical harm on another;
(2) The offender has a deadly weapon or dangerous
ordnance as defined in section 2923.11 of the Revised
Code on or about his person or under his control;
(3) The occupied structure involved is the permanent or
temporary habitation of any person, in which at the time
any person is present or likely to be present.
Ohio Rev. Code § 2911.11; Pet. Ex. A (Doc. 5-1). And, in 1978,
occupied structure was defined as:
any house, building, outbuilding, watercraft, aircraft,
railroad car, truck, trailer, tent, or other structure,
vehicle, or shelter, or any portion thereof, to which any of
the following applies:
Page 22 of 44

2:16-cv-02156-SEM # 14 Page 23 of 44

(A) Which is maintained as a permanent or temporary
dwelling, even though it is temporarily unoccupied, and
whether or not any person is actually present;
(B) Which at the time is occupied as the permanent or
temporary habitation of any person, whether or not any
person is actually present;
(C) Which at the time is specially adapted for the
overnight accommodation of any person, whether or not
any person is actually present;
(D) In which at the time any person is present or likely to
be present.
Ohio Rev. Code § 2909.01; Pet. Ex. A (Doc. 5-1).
Waagner argues that the statute is broader than generic
burglary because the definition of occupied structure covers
locations other than buildings. Pet. Memo, at 8 (Doc. 5). The Sixth
Circuit has previously held that the Ohio’s general burglary statute
is broader than generic burglary for this very reason. See United
States v. Coleman. 655 F.3d 480, 482 (6th Cir. 2011) (“Ohio’s thirddegree burglary statute sweeps more broadly than generic burglary
because it ‘includes] places, such as automobiles and vending
machines, other than buildings.’”) (internal citations omitted);
United States v. Lane, 909 F.2d 895, 902 (6th Cir. 1990) (“Because

Page 23 of 44

2:16-cv-02156-SEM #14 Page 24 of 44

Ohio's burglary statute includes places other than buildings, it is
broader than the Supreme Court's generic definition of burglary.”).
However, the Sixth Circuit cases did not address the
aggravated burglary statute at issue here, Ohio Rev. Code
§ 2911.11(A)(3). The Court notes that while Waagner argues the
definition of occupied structure under Ohio Rev. Code § 2909.01
was not divisible, he does not appear to argue that the subsections
listed in the Aggravated Burglary statute, Ohio Rev. Code
§2911.11, are not divisible. See Pet. Memo at 8 (Doc. 5) (“The
aggravated burglary statute is not divisible . . . because the
locational element is entry into an “occupied structure” with the
listed locations being different means of establishing the occupied
structure element.”). Even if he had, the Court finds that the
statute text, as well as state case law, show that subsections (1),
(2), and (3) of Ohio Rev. Code § 2911.11(A) list alternative elements
that the state must prove, not alternative means. See State v.
Wilson. 58 Ohio St. 2d 52, 58, 388 N.E.2d 745, 750 (1979) (“In
proving burglary the state need only prove that the structure was a
permanent or temporary habitation, or a structure in which any
person is present or is likely to be present. It need not prove both.
Page 24 of 44

2:16-cv-02156-SEM # 14

Page 25 of 44

In aggravated burglary, under R.C. 2911.11(A)(3), the state must
shoulder the additional burden of proving both.”). And, there does
not appear to be any dispute that Waagner was convicted under
§ 2911.11(A)(3). See PSR 1Hf48, 49 (recounting that the indictments
in both cases charged Waagner with burglary of “an occupied
structure, the permanent or temporary habitation of [victim], at a
time any person was present or likely to be present”); Resp. at 25
(Doc. 7); see also United States v. Waagner, No. l:02-CR-007, 2017
WL 1324608, at *1 (S.D. Ohio Apr. 11, 2017) (noting that “the
Answer of the United States attached the indictments in [Waagner’s]
two cases which show that Mr. Waagner was convicted in them of
aggravated burglary in violation of Ohio Revised Code
§ 2911.11(A)(3).”).
Unlike the general burglary statute, Ohio Aggravated Burglary
under § 2911.11(A)(3) contains the additional limiting language that
“the occupied structure involved is the permanent or temporary
habitation of any person, in which at the time any person is present
or likely to be present.” Ich Drawing on this additional element,
district courts in Ohio have found that Ohio Aggravated Burglary
under § 2911.11(A)(3) qualifies as generic burglary, regardless of
Page 25 of 44

2:16-cv-02156-SEM # 14

Page 26 of 44

the structure being burglarized. See, ej*., United States v. Barclay.
2016 WL 3753088 (N.D. Ohio 2016); United States v. Waagner. No.
l:02-CR-007, 2017 WL 1106361, at *2 (S.D. Ohio Mar. 24,
2017), report and recommendation adopted. No. l:02-CR-007, 2017
WL 1324608 (S.D. Ohio Apr. 11, 2017) (recommending denial of
Waagner’s § 2255 motion for his conviction in the Southern District
of Ohio, and collecting cases from both the Southern and Northern
District of Ohio that had held Ohio Aggravated Burglary is generic
burglary). However, a court in the Southern District of West
Virginia came to the opposite conclusion, finding that Ohio
Aggravated Burglary was not generic burglary because the occupied
structure element “includes places beyond those enumerated
in Taylor.” Slucarszvk v. United States. No. 3:03-CR-00102-l, 2018
WL 4381274, at *7 (S.D.W. Va. July 13, 2018), report and
recommendation adopted. No. 3:03-CR-00102-l, 2018 WL 4054756
(S.D.W. Va. Aug. 24, 2018).
While Waagner argued in his reply that the court’s
interpretation in Barclay1 was incorrect, the Supreme Court’s recent

Only Barclay had been decided at the time of Waagner’s reply.
Page 26 of 44

2:16-cv-02156-SEM # 14

Page 27 of 44

decision in United States v. Stitt, 139 S. Ct. 399 (2018), provides
additional guidance as to the scope of the “building or other
structure” element of generic burglary, and indicates that the Ohio
courts’ conclusions are correct. In Stitt, the Supreme Court
examined the Tennessee and Arkansas burglary statutes and held
that burglary of a structure or a vehicle that has been adapted or is
customarily used for overnight accommodation falls within the
definition of generic burglary. Id. at 406. Stitt’s holding relied on
Taylor’s finding that “Congress intended the definition of “burglary”
to reflect “the generic sense in which the term [was] used in the
criminal codes of most States” at the time the Act was passed.” Id
And, in 1986, when the ACCA was enacted, “a majority of state
burglary statutes covered vehicles adapted or customarily used for
lodging—either explicitly or by defining “building” or “structure” to
include those vehicles.” Id.
Stitt’s holding also relied on Congress’s view, as recounted in
Taylor, that burglary is “an inherently dangerous crime because
burglary ‘creates the possibility of a violent confrontation between
the offender and an occupant, caretaker, or some other person who
comes to investigate.’” Stitt, 139 S. Ct. at 406 (citing Taylor, 495
Page 27 of 44

2:16-cv-02156-SEM # 14

Page 28 of 44

U.S. at 588). And, burglary of a structure that is adapted for or
customarily used for lodging, whether it be of a mobile home, RV,
tent, vehicle, or another structure, “runs a similar or greater risk of
violent confrontation.” Id.
However, the Supreme Court made clear that its holding in
Stitt was not inconsistent with its holdings and statements in
Taylor, Mathis, and other cases that found “burglary of certain
nontypical structures of vehicles fell outside the scope of’ generic
burglary. Stitt, 139 S. Ct. at 407. While Taylor had “referred to a
Missouri breaking and entering statute that among other things
criminalized breaking and entering ‘any boat or vessel, or railroad
car, that statute did not restrict “its coverage ... to vehicles or
structures customarily used or adapted for overnight
accommodation.” Ich Similarly, while the Iowa statute at issue in
Mathis was found not to be generic burglary because it covered
“any building, structure, . . . land, water or air vehicle, or similar
place adapted for overnight accommodation of persons [or used] for
the storage or safekeeping of anything of value,” ordinary vehicles
were included in this definition as they could be used for storage or
safekeeping. IcL at 407 (citing Mathis. 136 S. Ct. at 2250).
Page 28 of 44

2:16-cv-02156-SEM # 14 Page 29 of 44

Importantly for this case, Stitt left open the question of
whether the Arkansas residential burglary statute at issue was
overbroad due to its coverage of burglaries in “a vehicle . . . [i]n
which any person lives,” and remanded that issue to the Eighth
Circuit. Id^ Respondent Sims argued that “these words might cover
a car in which a homeless person occasionally sleeps.” Id.
Waagner argues in supplemental briefing that the Ohio Aggravated
Burglary statute is still overbroad after Stitt because it could also
cover ordinary vehicles.
On remand, however, the Eighth Circuit found that Arkansas
residential burglary was generic burglary. United States v. Sims,
No. 16-1233, 2019 WL 3789294, at *3 (8th Cir. Aug. 13, 2019). The
Eighth Circuit found that the majority of states’ burglary statutes
included similarly defined locations in 1986, which indicated that
the statute fell within the definition of generic burglary. kh The
Eighth Circuit agreed with Sims that “the statute’s plain language
arguably applies to an intrusion into an ordinary vehicle in which a
homeless person is living even if it has not been modified for
residential use.” Ich at *3. However, the Eighth Circuit found that
the Supreme Court in Stitt had focused on the risk of violence a
Page 29 of 44

2:16-cv-02156-SEM #14 Page 30 of 44

burglary presents, not whether the offender was necessarily on
notice that someone was living in the structure. Id. (citing Stitt.
139 S. Ct. at 407). Moreover, the Eighth Circuit noted that burglary
of a vehicle not used for residential purposes is covered in a
separate Arkansas statute. Id.
Additionally, after Stitt, other courts across the country have
found that similarly worded statutes fall within the definition of
generic burglary. See, e.g.. Walker v. United States. No. 4:02-CR00161-RK, 2019 WL 2505046, at *5 (W.D. Mo. June 17, 2019)
(finding Missouri second-degree burglary, which included “burglary
of a structure or vehicle in which people are located or are
customarily located,” was generic burglary, and that excluding such
burglaries “would mean burglaries often posing a greater risk than
burglary of a building or house would be eliminated as predicate
offenses”); Edmonds v. United States. No. 3:16-CV-1835-S, 2019
WL 3024649, at *2 (N.D. Tex. July 11, 2019) (holding New York’s
second-degree burglary statute was generic burglary because “[a]
burglary involving a vehicle or structure used for lodging or
business involves a similar risk of violent confrontation as a

Page 30 of 44

2:16-cv-02156-SEM # 14 Page 31 of 44

burglary of a vehicle or structure adapted or designed for lodging or
business use”).
Here, Ohio Aggravated Burglary, like Arkansas residential
burglary, could arguably cover an ordinary vehicle in which a
homeless person was living. Therefore, the Court finds that Stitt
did not foreclose the possibility that the statute is overbroad.
However, the Court agrees with the Eighth Circuit’s reasoning in
Sims and finds that the Eighth Circuit’s reasoning applies with
equal force to the Ohio Aggravated Burglary statute. A conviction
under Ohio Rev. Code § 2911.11(A)(3) requires the state to prove
both that the occupied structure be a habitation and that someone
is present or likely to be present. See also State v. Wilson, 58 Ohio
St. 2d 52, 59, 388 N.E.2d 745, 750 (1979) (“The aggravated
burglary statute, by its own terms, requires two elements of proof,
permanent or temporary habitation and presence or likelihood of
presence. This additional element of proof placed upon the state as
part of its burden of proof clearly distinguishes the crime from
simple burglary.”). The Court finds these elements sufficiently limit
Ohio Aggravated Burglary under Ohio Rev. Code § 2911.11(A)(3) to
those instances where there is a significant risk of a “violent
Page 31 of 44

2:16-cv-02156-SEM # 14 Page 32 of 44

confrontation between the offender and an occupant, caretaker, or
some other person who comes to investigate.” Stitt. 139 S. Ct. 406
(internal citations omitted). While the “occupied structure” under
Ohio law could include a vehicle, Stitt shows that inclusion of
vehicles and other nontypical structures does not by itself make the
statute overbroad when there is additional limiting language.
By contrast, the Missouri burglary statute discussed in Taylor
had no such limiting language, but instead applied to “any boat or
vessel, or railroad car,” regardless of whether these structures were
being used as a habitation or whether someone was present or
likely to be present. And the Iowa burglary statute at issue in
Mathis applied to burglaries of vehicles and other structures that
are used for the storage or safekeeping of anything valuable, but did
not provide any further limiting language. Accordingly, the Court
finds that the Ohio Aggravated Burglary under Ohio Rev. Code
§ 2911.11(A)(3) is distinguishable from the statutes discussed in
Taylor and Mathis, and falls within the definition of generic
burglary as clarified by Stitt. Waagner’s two convictions for Ohio
Aggravated Burglary, therefore, give him two predicate violent
felonies under the ACCA.
Page 32 of 44

2:16-cv-02156-SEM # 14 Page 33 of 44

E. Waagner’s Virginia and Georgia Burglaries are Not Violent
Felonies After Johnson.
Waagner also has additional burglary convictions under
Virginia and Georgia law. These convictions were not relied upon in
finding Waagner an Armed Career Criminal at sentencing, but the
Government argues they qualify as additional violent felonies under
the ACCA under the enumerated clause. The Court does not agree.
Waagner was convicted of Virginia statutory burglary in 1976.
The parties agree that his conviction was most likely in violation of
Va. Code Ann. 18.2-91. In 1975, Va. Code Ann § 18.2-91, read:
Entering dwelling house, etc., with intent to commit
larceny or other felony. - If any person do any of the acts
mentioned in § 18.2-90 with intent to commit larceny, or
any felony other than murder, rape or robbery, he shall
be deemed guilty of statutory burglary ....
Va. Code Ann § 18.2-91. And Virginia Code § 18.2-90 read:
Entering dwelling house, etc., with intent to commit
murder, rape or robbery. - If any person in the nighttime
enter without breaking or in the daytime break and enter
a dwelling house or an outhouse adjoining thereto and
occupied therewith or in the nighttime enter without
breaking or break and enter either in the daytime or
nighttime any office, shop, storehouse, warehouse,
banking house, or other house, or any ship, vessel or
river craft or any railroad car, or any automobile, truck
or trailer, If such automobile, truck or trailer is used as a
dwelling or place of human habitation, with intent to
Page 33 of 44

2:16-cv-02156-SEM # 14 Page 34 of 44

commit murder, rape or robbery, he shall be deemed
guilty of statutory burglary . . .
Virginia Code § 18.2-90.
The Government first argues that the Virginia burglary statute
is “essentially limited” to places of human habitation, and,
therefore, falls within the generic definition of burglary. Resp. at 28
(Doc. 6). The text of the statute refutes this argument. While
automobiles, trucks, and trailers only fall under the statute if they
are place[s] of human habitation,” the statute also covers “any
ship, vessel or river craft or any railroad car.” And these later terms
do not contain the qualification that they must be “place[s] of
human habitation.” Unlike the statutes at issue in Stitt, and unlike
Ohio Aggravated Burglary, there is no qualifying language that
would limit these structures to those locations that run a greater
risk of violence. See Stitt, 139 S. Ct. at 406. Instead it covers the
exact type of nontypical structures that the Supreme Court found to
fall outside the scope of generic burglary in Taylor and Mathis. See
also, Castendet-Lewis v. Sessions. 855 F.3d 253, 264 (4th Cir.
2017) (and finding the Virginia burglary statute is indivisible and
not generic burglary); United States v. Reves-Ochoa. 861 F.3d 582,
Page 34 of 44

2:16-cv-02156-SEM # 14 Page 35 of 44

587 (5th Cir. 2017) (concurring with Castendent-Lewis and holding
Virginia burglary is not generic burglary and is indivisible).
The Government also argues that the statute is divisible and
subject to the modified categorical approach. Prior to Descamps
and Mathis, the Fourth Circuit, in United States v. Foster, 662 F.3d
291, 296 (4th Cir. 2011), had held that the statute was divisible.
However, Foster is no longer good law in light of Descamps and
Mathis. See Castendet-Lewis, 855 F.3d at 264 (overturning Foster).
In Castendet-Lewis, the Fourth Circuit found that the language of
the Virginia burglary statute clearly “provides a list of locations—
each of which would qualify as an element of statutory burglary.”
Id. at 264. And, the Supreme Court of Virginia has found that the
locational terms were interchangeable. Id,, (citing Graybeal v.
Commonwealth, 228 Va. 736, 740, 324 S.E.2d 698, 700 (1985)).
The Court agrees with the reasoning of the Fourth Circuit and finds
that Virginia Burglary is not generic burglary, and, therefore, does
not qualify as a violent felony under the ACCA.
The statute defining Waagner’s Georgia burglary conviction is
not very different structurally, and the Court finds that the Georgia
burglary statute is also broader than generic burglary and not
Page 35 of 44

2:16-cv-02156-SEM #14

Page 36 of 44

divisible. At the time of Waagner’s conviction, the Georgia Burglary
statute read as follow:
A person commits burglary when, without authority and
x
with the intent to commit a felony or theft therein, he
enters or remains within the dwelling house of another or
any building, vehicle, railroad car, aircraft, watercraft, or
other such structure designed for use as the dwelling of
another, or enters or remains within any other building,
railroad car, aircraft, or any room or any part thereof. . . .
Ga. Code 26-1601 (1978); Georgia Law 1978, Pg. 236, Section 1
(enacted March 2, 1978) (available online at
http://metis.galib.uga.edu/ssn/cgi-bin/legis-idx.plb
Like Virginia burglary, the plain text of the statute includes
more than generic burglary as it encompasses an offender who
“enters or remains within any other building, railroad car, aircraft,
or any room or any part thereof.” The Government conceded this
issue in its response.
The Government argues, however, that the statute is divisible
by the list of locations. A circuit split has developed on this issue
since Mathis. First, the Eleventh Circuit in United States v, Gundv
842 F.3d 1156, 1168 (11th Cir. 2016), held that the Georgia
burglary statute and the controlling state law interpreting the
statute conclusively show that the statute is divisible and the
Page 36 of 44

2:16-cv-02156-SEM # 14 Page 37 of 44

different locations listed are different means. Next, the Sixth
Circuit, in Richardson v. United States, 890 F.3d 616, 622 (6th
Cir.), reh’g denied (June 4, 2018), cert, denied, 139 S. Ct. 349
(2018), disagreed with Gundy’s conclusion that the Georgia law was
clear on the issue, but “peeked” at the records in the defendant’s
case and determined that the locations listed were elements. Most
recently, however, the Fourth Circuit in United States v. Cornette
932 F.3d 204, 213 (4th Cir. 2019), has disagreed with both circuits
and found that the Georgia law conclusively shows that the statute
is not divisible. See also United States v. Hamilton, 889 F.3d 688
697, n.9 (10th Cir. 2018) (disagreeing with the conclusion in Gundy
to the extent the Georgia statute resembles the Oklahoma statute at
issue).
Here, the Court finds that the Fourth Circuit’s recent
consideration of the statute is both more persuasive and more in
line with Seventh Circuit precedent. The Court agrees with the
Fourth Circuit that the text of the statute, while setting forth a
disjunctive list of types of locations to be burglarized, appears to list
“illustrative examples” rather than alternative elements. The
subsections “simply identify several different ways of describing a
Page 37 of 44

2:16-cv-02156-SEM # 14 Page 38 of 44

particular location.” United States v. Edwards. 836 F.3d 831, 837
(7th Cir. 2016). Like the Wisconsin statute at issue before the
Seventh Circuit in Edwards, the statutory alternatives are similar
and overlapping, indicating that only one element is being
described. Id. Moreover, the statute defines only one crime and
does not detail different penalties for different locations. See
Edwards, 836 F.3d at 837; United States v. Hanev. 840 F.3d 472,
475-76 (7th Cir. 2016).
As the Fourth Circuit explained, Georgia state court precedent
regarding jury instructions confirms that the statute lists
alternative means:
Georgia courts have repeatedly upheld jury instructions where
a jury was entitled to find entry into either a “dwelling house
or building,” with no unanimity requirement on those
alternatives. In Hart v. State, the Georgia Supreme Court held
that such a jury instruction was “sufficient to inform the jury
of the essential elements of the offense.” 238 Ga.App. 325, 517
S.E.2d 790, 793 (1999). Significantly, the indictment
in Hart charged entry into a “dwelling house,” a term used in
the burglary statute, but the jury was not required to agree
that the location burgled was indeed a “dwelling house.” Id. at
792; see also Long v. State, 307 Ga.App. 669, 705 S.E.2d 889
(2011) (upholding jury instruction with identical location
element as “complete and correct”). The lack of a jury
unanimity requirement on the type of location burgled
indicates that burglary includes multiple alternative means as
opposed to elements, and so is an indivisible offense.
Page 38 of 44

2:16-cv-02156-SEM # 14 Page 39 of 44

Cornette, 932 F.3d at 212.
In Gundy, the Eleventh Circuit found it significant that
Georgia law requires prosecutors to charge the “specific location”
burglarized and that the prosecution is required to prove the
specific location burglarized. See Gundy, 842 F.3d at 1167.
However, as the Fourth Circuit explained in Cornette, “[w]hile
Georgia law does require prosecutors to charge ‘the specific location’
burgled . . . there is no analogous requirement that prosecutors
charge or prove the type of location burgled.” Cornette 932 F.3d at
212 (citing Morris v. State, 166 Ga.App. 137, 303 S.E.2d 492, 494
(1983) (stating that an indictment “must specify the location of the
burglary” in order “to give the defendant ample opportunity to
prepare a defense”); see also Gundy, 842 F.3d at 1176 (Jill Pryor J.
dissenting); Richardson, 890 F.3d at 626 (finding indictment
requirements were instructive, but noting that “they do not
definitively establish that the specified burglary locations are
alternative elements of the offense”). Accordingly, the Court finds
that Waagner’s Georgia and Virginia burglary convictions are not for
generic burglary and do not qualify as additional predicate
convictions for violent felony under the ACCA.
Page 39 of 44

L

2:16-cv-02156-SEM #14 Page 40 of 44

F. Ohio Attempted Robbery is a Violent Felony Under the
Element’s Clause of the ACCA.
While the Court finds that Waagner’s argument that his
burglary convictions are not violent felonies relies on Johnson, the
same is not as easily said for Waagner’s 1992 conviction for Ohio
Attempted Robbery in violation of Ohio Rev. Code. § 2911.02(A).
Therefore, it is not clear whether he has any basis to challenge the
use of this conviction as an ACCA predicate in a successive § 2255
motion. Assuming that a basis exists, the Court finds that Ohio
Attempted Robbery still qualifies as a violent felony under the
elements clause of the ACCA.
At the time of Waagner’s conviction in 1992, the Ohio robbery
statute read: “No person, in attempting or committing a theft
offense . . . shall use or threaten the immediate use of force against
another.” Ohio Rev. Code. § 2911.02(A). Additionally, Ohio Rev.
Code § 2923.02 defined the crime of “Attempt”: “(A) No person,
purposely or knowingly, and when purpose or knowledge is
sufficient culpability for the commission of an offense, shall engage
in conduct which, if successful, would constitute or result in the
offense.” A criminal attempt” occurs when “one purposely does or
Page 40 of 44

2:16-cv-02156-SEM # 14 Page 41 of 44

omits to do anything which is an act or omission constituting a
substantial step in a course of conduct planned to culminate in his
commission of the crime.” State v. Woods. 48 Ohio St.2d 127, 127,
357 N.E.2d 1059.(1976).
Waagner argues that his conviction was not a violent felony
because an attempt to commit robbery under the Ohio statute does
not necessarily involve “the use, attempted use, or threatened use
of physical force against the person of another.” § 924(e)(2)(B)(i).
However, since initial briefing concluded in this case, the Seventh
Circuit held that “[w]hen a substantive offense would be a violent
felony under § 924(e) and similar statutes, an attempt to commit
that offense also is a violent felony.” See Hill v. United States, 877
F.3d 717, 719 (7th Cir. 2017), cert, denied, 139 S. Ct. 352, 202 L.
Ed. 2d 249 (2018).
Here, the Court finds that the crime Waagner attempted to
commit, Ohio Robbery, is a violent felony under the ACCA because
the statute includes as an element that the individual “shall use or
threaten the immediate use of force against another.” Ohio Rev.
Code § 2911.02(A). Moreover, Waagner’s brief also appears to agree
that the offense of robbery itself is a violent felony under the force
Page 41 of 44

2.16-CV-02156-SEM #14

Page 42 of 44

clause. See Pet. Memo, at 23 (Doc. 5) (“There is no doubt that a
person convicted of an Ohio attempted robbery must have been
prepared to use force as he must have had the intent to commit a
robbery, which requires the use, attempted use, or threatened use
of force, and take a substantial step towards committing the
robbery.”). Accordingly, the Court agrees with the Sixth Circuit and
other courts that have found Ohio robbery is a violent felony. See
United States v. Sanders. 470 F.3d 616, 623-24 85 n.6 (6th Cir.
2006) (holding that a robbery conviction under Ohio Rev. Code
§ 2911.02(A) qualified as a violent felony); United States v. Mansur.
375 Fed. Appx. 458, 464 (6th Cir. Mar. 25, 2010) (unpublished)
(Ohio attempted robbery conviction qualified as violent felony under
the use-of-force clause of ACCA); United States v. McCauley. No.
3:06-CR-154, 2013 WL 4671301, at *3 (S.D. Ohio Aug. 30,
2013)> report and recommendation adopted. No. 3:06-CR-154, 2013
WL 5707853 (S.D. Ohio Oct. 18, 2013).
Therefore, the Court finds that Waagner’s Ohio Attempted
Robbery conviction remains a violent felony. Combined with his
two convictions for Ohio Aggravated Burglary, Waagner still has the
requisite three prior convictions for violent felonies for him to
Page 42 of 44

2:16-cv-02156-SEM # 14 Page 43 of 44

qualify as an Armed Career Criminal under § 924(e). Accordingly,
he is not entitled to relief and his § 2255 motion must be denied.
III. CERTIFICATE OF APPEALABILITY
If Petitioner seeks to appeal this decision, he must first obtain
a certificate of appealability. See 28 U.S.C. § 2253(c) (providing that
an appeal may not be taken to the court of appeals from the final
order in a § 2255 proceeding unless a circuit justice or judge issues
a certificate of appealability). A certificate of appealability may
issue only if Petitioner has made a “substantial showing of the
denial of a constitutional right.” 28 U.S.C. § 2253(c)(2). Such a
showing is made if “reasonable jurists could debate whether (or, for
that matter, agree that) the petition should have been resolved in a
different manner.” Slack v. McDaniel. 529 U.S. 473, 484, 120 S.Ct.
1595 (2000).
Here, the Court finds that a reasonable jurist could debate
whether Ohio Aggravated Burglary is generic burglary. The
Supreme Court’s decision in Stitt left open the possibility that that
statutes such as Ohio Aggravated Burglary, which “might cover a
car in which a homeless person occasionally sleeps,” could fall
outside the definition of generic burglary, and the Seventh Circuit
Page 43 of 44

2:16-cv-02156-SEM # 14

Page 44 of 44

has not yet spoken on the issue. Accordingly, the Court finds that
Waagner has made a substantial showing of the denial of a
constitutional right. The Court will issue a certificate of
appealability.
IV. CONCLUSION
For the reasons stated, Petitioner Clayton Lee Waagner’s
Motion to Vacate, Set Aside, or Correct Sentence Under 28 U.S.C.
§ 2255 (Doc. 1) is DENIED. The Court ISSUES a certificate of
appealability. This case is CLOSED.

ENTER: September 12, 2019

A/Sue/E. hAver^cough/
SUE E. MYERSCOUGH
UNITED STATES DISTRICT JUDGE

Page 44 of 44

